<html>
<title> - HEARING ON THE NOMINATIONS OF JANET G. McCABE TO BE ASSISTANT ADMINISTRATOR FOR AIR AND RADIATION OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY (EPA), ANN E. DUNKIN TO BE ASSISTANT ADMINISTRATOR FOR ENVIRONMENTAL INFORMATION OF THE EPA, AND MANUEL H. EHRLICH, JR., TO BE A MEMBER OF THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD</title>
<body><pre>[Senate Hearing 113-758]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-758

     HEARING ON THE NOMINATIONS OF JANET G. McCABE TO BE ASSISTANT 
     ADMINISTRATOR FOR AIR AND RADIATION OF THE U.S. ENVIRONMENTAL 
 PROTECTION AGENCY (EPA), ANN E. DUNKIN TO BE ASSISTANT ADMINISTRATOR 
 FOR ENVIRONMENTAL INFORMATION OF THE EPA, AND MANUEL H. EHRLICH, JR., 
  TO BE A MEMBER OF THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                     U.S. GOVERNMENT PUBLISHING OFFICE
97-799 PDF                 WASHINGTON : 2016                 
               
_________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  
            
               
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 8, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    18
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   131
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   154
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska, 
  prepared statement.............................................   154

                               WITNESSES

McCabe, Janet G., nominated to be Assistant Administrator for Air 
  and Radiation, U.S. Environmental Protection Agency............    19
    Prepared statement...........................................    21
    Responses to additional questions from:
        Senator Boxer............................................    23
        Senator Vitter...........................................    25
        Senator Inhofe...........................................    50
        Senator Sessions.........................................    54
        Senator Boozman..........................................    67
        Senator Fischer..........................................    70
Dunkin, Ann E., nominated to be Assistant Administrator for 
  Environmental Information, U.S. Environmental Protection Agency    77
    Prepared statement...........................................    79
    Responses to additional questions from:
        Senator Vitter...........................................    83
        Senator Boozman..........................................    84
Ehrlich, Manuel H., Jr., nominated to be a Member of the Chemical 
  Safety and Hazard Investigation Board..........................    85
    Prepared statement...........................................    87
    Response to an additional question from Senator Boxer........    91
    Responses to additional questions from:
        Senator Vitter...........................................    93
        Senator Fischer..........................................    95

 
     HEARING ON THE NOMINATIONS OF JANET G. McCABE TO BE ASSISTANT 
     ADMINISTRATOR FOR AIR AND RADIATION OF THE U.S. ENVIRONMENTAL 
 PROTECTION AGENCY (EPA), ANN E. DUNKIN TO BE ASSISTANT ADMINISTRATOR 
 FOR ENVIRONMENTAL INFORMATION OF THE EPA, AND MANUEL H. EHRLICH, JR., 
  TO BE A MEMBER OF THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the committee) presiding.
    Present: Senators Boxer, Carper, Whitehouse, Markey, 
Vitter, Inhofe, Barrasso, Sessions, Crapo, and Fischer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The committee will come to order.
    Today, we will consider three nominations. It is critical 
that we move forward with these nominations so that our Federal 
agencies can fulfill their mission to serve the American 
people, protect their health and safety. That is the role of 
this committee.
    The first nominee we will hear from today is Janet McCabe, 
who is being considered for Assistant Administrator for the 
Office for Air and Radiation at EPA. Currently, she is Acting 
Assistant Administrator and she previously served as that 
office's Principal Deputy to the Assistant Administrator.
    Prior to joining EPA, Ms. McCabe was Executive Director of 
Improving Kids Environment, Inc., a children's environmental 
health advocacy organization based in Indianapolis, Indiana. 
She was an Adjunct Faculty member at Indiana University's 
School of Medicines, Department of Public Health.
    Ms. McCabe has a wealth of public service experience aimed 
at protecting air quality and the environment. Ms. McCabe's 
extensive experience will serve her well and build on the 
important work EPA has done to protect public health by keeping 
our Nation's air clean.
    In 2010 alone, the clean air standards and programs under 
the Clean Air Act prevented 13 million lost work days, 
prevented more than 160,000 deaths from pollution, and 
prevented 1.7 million asthma attacks.
    Like her predecessors at EPA, Ms. McCabe will rely on 
science and peer reviewed studies to determine how best to 
protect America's families under our landmark laws.
    The next nominee we will hear from is Ann E. Dunkin, who 
hails from my home State, California. She has been nominated to 
be Assistant Administrator for the Environmental Information 
Office at EPA. She brings over two decades of technology 
management experience in both the private and public sectors, 
including 20 years at Hewlett Packard.
    She is currently the Chief Tech Officer for Palo Alto 
Unified School District, Palo Alto, California, where she is 
responsible for managing all aspects of the district's 
technology strategy infrastructure and operations. Her 
experience spans across disciplines of manufacturing, 
engineering, software quality, research and development and 
operations and information.
    If confirmed, she will be responsible for managing EPA's 
information and technology investments and provide tech 
services in OEI, which collects, manages, provides and 
safeguards environmental information.
    The committee is also considering the nomination of Manuel 
Ehrlich to be a member of the Chemical Safety Board. Mr. 
Ehrlich has over 50 years of chemical industry safety and 
emergency response experience, including establishing a 
training team to assist in the management of emergency response 
incidents.
    As a member of the CSB, Mr. Ehrlich will be charged with 
investigating industrial chemical accidents, to protect 
workers, to protect the public and the environment. Mr. Ehrlich 
is very well qualified for this position because he has handled 
more than 7,000 chemical safety and emergency responses during 
his long career.
    The CSB plays a critical role in protecting our communities 
from chemical hazards and is part of a working group that 
President Obama established after the deadly chemical disaster 
in West, Texas. I know Mr. Ehrlich's broad experience in the 
public and private sectors will be useful as the CSB and other 
working groups conduct a comprehensive review of Federal 
chemical safety and security programs and develop 
recommendations for improving these programs.
    This hearing is a very important step in forwarding to the 
Senate these three very, very qualified nominees whom I 
strongly support. I look forward to this hearing today.
    With that, I turn to Senator Vitter, my ranking member.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Chairman Boxer, for convening 
today's hearing, and welcome to our three nominees.
    While I appreciate everyone taking the time to join us 
today, I would like to focus on Ms. McCabe and her Air Office 
for the next few minutes.
    As you know, for some time we have been engaged in a 
sustained effort to bring greater transparency to EPA's 
activities. Sometimes we have been successful but generally 
speaking, getting clear, understandable answers and data from 
the agency remains a challenge.
    Ms. McCabe has been at the EPA for a number of years, first 
as the now Administrator McCarthy's second in command and 
currently as the Acting Assistant Administrator of the Air 
Office. She has enjoyed a front row seat during our prolonged 
efforts with EPA and should be well aware of the expectations 
of the role into which she is stepping, including about 
transparency.
    EPA says it is one of the most transparent administrations 
in history, so I think it is time to stop just talking about 
that and shed some much greater light on agency processes.
    There are many issues I could discuss today but I want to 
focus on three for the time being. First is electricity 
reliability. While we are dependent on a diverse generation 
portfolio including coal, natural gas and nuclear, EPA's 
regulatory onslaught makes the future far less certain in terms 
of that broad base of support.
    American Electric Power's CEO stated, ``89 percent of our 
coal capacity slated for retirement in mid-2015'' was providing 
the power necessary to meet current demand. EIA projects 
additional coal power plant retirement in addition to those 
already scheduled for 2016. While existing EPA regulations 
contribute to these closures, the pending actions under the 
President's Climate Action Plan dramatically increase those 
consequences, including negative consequences to reliability 
and affordability.
    The most damaging rules, greenhouse gas performance 
standards for power plants, 316(b) and pending revision to the 
ozone standard remain to be finished and imposed on the 
American consumer.
    The second topic I want to visit is the greenhouse gas 
emission performance standards for power plants. The rule for 
existing sources is going to affect over 1,500 fossil fuel 
plants in the U.S., including nearly 560 coal-fired power 
plants. The President set a deadline of June 1 that the agency 
appears on track to meet, yet none of us in this room know the 
exact contents of the proposal except perhaps the nominee.
    The rule for new sources had to be repurposed after 
receiving over 2 million comments. Clearly something was 
serious wrong. I cannot say that the new version is a rousing 
success either. Any contemplation of building new coal-fired 
plants will require the use of technologies that are not 
adequately demonstrated at a commercial scale and are based on 
three incomplete, inoperable projects funded by the government. 
In other words, EPA seems to be mandating a regulation based on 
fiction.
    Increased regulation by EPA through these performance 
standards has the potential of resulting in job loss across the 
country, serious electricity reliability issues and certainly 
increased electric bills.
    The third issue I want to touch on is the social cost of 
carbon. We have been over this a number of times, and it 
continues to concern me that direct answers to the simplest 
questions and requests on this remain unfilled. Why did EPA 
ignore OMB guidance and not run the social cost of carbon 
estimate at a 7 percent discount rate? Why did EPA not do an 
assessment of the social cost of carbon with respect to the 
U.S.? To date, the social cost of carbon is used in 28 EPA 
rules. It is a significant estimate that needs to be fully 
understood before being allowed to be used in such a dominant 
and perhaps haphazard manner.
    These are only a few of the issues I have with the EPA and 
how it runs things now. In each instance, the agency seems to 
be prepared to select the most difficult, most painful, least 
understandable and least transparent path. I certainly hope Ms. 
McCabe will work with us to change that positively.
    Thank you, Madam Chairman.
    Senator Boxer. Thanks.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you all for being here. Thank you all 
for your willingness to serve in these roles.
    My colleagues have heard me say more than a few times that 
practicing executive branch government by Swiss cheese; there 
are way too many vacancies in the executive branch of our 
Government across departments. It is wasteful and inefficient. 
It is foolish.
    I don't care whether the President is George Herbert Walker 
Bush or Bill Clinton or George W. Bush or Barack Obama, this is 
not a smart way to go.
    Madam Chairwoman, I applaud you for bringing these names 
forward and for having this hearing today. I think we have some 
pretty good nominees. I look forward to talking with you and 
hearing from you and trying to move your nominations forward.
    Thank you.
    Senator Boxer. Thank you, Senator, for your support.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    I want to than the nominees and congratulate them on their 
nominations.
    As stated before, I am from what I consider the most 
beautiful State in the country. Folks in my State believe we 
can balance our energy needs with our environmental needs. We 
are wonderful environmental stewards of the land. People in my 
State watch the EPA and watch what the EPA is doing.
    Yesterday Senator Enzi and I had a telephone town hall 
meeting, and call after call was about the EPA and Government 
regulations. People in Wyoming think this agency is behaving in 
an extreme fashion. Many of the policies coming out of the 
EPA's Air and Radiation Office are the cause of the beliefs I 
am hearing from the people around the State of Wyoming.
    We have a nominee before us today, Janet McCabe, who has 
been nominated to head this very important office and is 
currently serving as the office's acting head. Any nominee 
tasked with heading up this office should be discussing what 
the best ways are to provide clean air while not harming the 
economy and economic growth.
    The only way to do this is to have a nominee who will work 
with us to chart a bipartisan path, consensus, sound science, 
transparency and accountability. The Air and Radiation Office 
at the EPA has presided over regulations and proposed rules on 
greenhouse gases, coal ash, ozone, mercury emissions and 
industrial boilers.
    Regulations and proposed rules have led to the closing of 
dozens of power plants in the United States and are costing our 
country thousands of jobs. Folks in those communities where 
those plants shut down are now without money, without jobs, 
without prospects for jobs and are at risk for serious health 
problems as a result of chronic long term unemployment.
    Studies show that children of unemployed parents will 
suffer significant negative health effects. The National Center 
for Health Statistics states that children in poor families are 
four times as likely to be in fair or poor health as children 
in families who are not poor. There are serious health risks 
and these go unnoticed by the Air and Radiation Office at EPA 
as they churn out more job crushing regulations with little 
environmental benefits.
    Any nominee to hold this position must pledge to look at 
these important health impacts. To date, the nominee has not 
taken this action in her current role as acting head of this 
office. To make matters worse, we find that some of these rules 
were developed by an EPA employee with no environmental 
experience who masqueraded as a CIA agent. No attempts have 
been made by the Air and Radiation Office, of which I am aware, 
to review and rescind the work of this great imposter. Any 
nominee to fill this position must pledge to do so.
    In addition, the Air and Radiation Office has not 
recognized the importance of addressing the issue of energy 
poverty. Coal is a domestic abundant fuel source. It burns 24 
hours a day, 7 days a week. Coal is lifting millions out of 
poverty in Asia and the developing world.
    At the same time, this Air and Radiation Office is 
quarterbacking the war on coal, establishing a carbon capture 
and sequestration requirement for future coal-fired power 
plants that may never be achievable. Carbon capture and 
sequestration is a technology that is not currently and may 
never be commercially and economically viable.
    Regulations that do not allow coal to continue as part of 
America's energy mix will only lead to one thing, poverty for 
low income families who spend a greater share of their income 
on energy. Any nominee to head the Air and Radiation Office of 
EPA must stop denying the technological limitations of CCS and 
the importance of reducing energy poverty in America. In her 
current role, this nominee has not done so.
    Again, I thank you, Madam Chairman, and look forward to the 
testimony.
    Senator Boxer. Thank you.
    I ask unanimous consent to place in the record the American 
Lung Association Clean Air Survey completed in 2012.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Seventy-three percent of voters say we don't 
have to choose between air quality and a strong economy; 66 
percent of voters favor EPA updating air pollution standards by 
setting stricter standards; and 72 percent of voters support 
new standards for carbon pollution from power plants. This was 
across the whole country.
    I will try to get your State separated out but it is very 
clear that there wasn't any State that didn't agree with these 
findings.
    Senator Barrasso. Madam Chair, I also ask then to be put 
into the record my report on studies showing that EPA's rules 
cost Americans their jobs and their health.
    Senator Boxer. Of course we will be happy to do that.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. In addition to that, we will also show what 
the EPA has done since the Clean Air standard just in 1 year 
alone in preventing 160,000 deaths from air pollution.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. We really have a different way of seeing the 
world but you can make up your opinions but you cannot make up 
the facts. That is the truth.
    Yes.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair, for holding 
this hearing.
    Welcome to all of the nominees.
    As the opening comments show, you have considerable 
diversity of views on this panel. I perhaps represent a State 
that is the opposite of Wyoming. Wyoming gets from coal, as I 
understand, about $1 billion a year in State revenue, so it is 
a very important economic driver in that State.
    Rhode Island gets asthma, we get ozone, we get days where 
the morning radio says that infants, elderly and people with 
breathing difficulties need to stay indoors. They become 
captive. We get 10 inches of sea level rise that has been 
measured since the 1930s, which is a very big deal because when 
you are the Ocean State and you get hit with big storms like 
the famous hurricane of 1938 when there is 10 more inches of 
ocean to throw against the shores, there is considerably more 
devastation.
    It is only reasonable to anticipate that a storm that has 
actually occurred can be repeated. We need to be sensitive to 
that. Our bay is 3 to 4 degrees warmer in the winter, so 
fisheries like the winter flounder that were huge cash crops 
for our fisherman have virtually disappeared. There has been a 
better than 90 percent crash in the winter flounder population.
    It is really important when we look at this issue that we 
not look at a one-sided ledger. Senator Barrasso has his side 
of the ledger, and it is a real side of the ledger. I don't 
dispute that there are significant benefits to Wyoming from 
continuing to mine and burn and sell coal. Those have to be 
addressed at any fair resolution.
    We simply cannot ignore the other side of the ledger. You 
cannot have one-sided accounting. If this were accounting, 
accountants would go to jail for only looking at one side of 
the ledger. On our side of the ledger, I have a State that is 
really very much at risk. We need the EPA to be defending us 
against the coal plants that are downwind that have dodged 
regulation for years that are pumping through 500,000 foot tall 
stacks so that it doesn't hit their immediate area but comes 
down on us.
    We cannot regulate that through our State Department of 
Environmental Management. They don't have the jurisdiction that 
far. We need the EPA. It is the only place we can go when we 
have kids in the emergency room with that thing on their finger 
measuring their blood oxygen levels and the mom who thought she 
was going to have a day at work stuck there with them while 
they try to get their oxygen levels under control and back to 
breathing right again.
    That is nothing I am ever going to walk away from. I 
appreciate EPA's support. Good luck navigating the differences 
between the two sides of the ledger on coal.
    I would ask unanimous consent that the remainder of my 
remarks be admitted.
    Senator Boxer. Without objection.
    [The referenced statement was not received at time of 
print.]
    Senator Boxer. Now that you have seen the unity of this 
committee on issues of the environment, welcome.
    We are going to start with Ms. McCabe. We are going to ask 
you to stay to 5 minutes, please. After that, I will cut you 
off because I am sure we will have questions.
    Please proceed.

    STATEMENT OF JANET G. McCABE, NOMINATED TO BE ASSISTANT 
    ADMINISTRATOR FOR AIR AND RADIATION, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. McCabe. Thank you, Chairman Boxer.
    Chairman Boxer, Ranking Member Vitter and members of the 
committee, thank you for holding this hearing. I am honored to 
appear before you and grateful for the time that you and our 
staff have spent with me prior to today.
    I would also like to thank the members of my family who are 
here with me today behind me, my husband, Jon Laramore and my 
children, Peter, Alice and Dan. I think of them every day and I 
am so grateful for their support.
    It is a great honor and very humbling that President Obama 
has nominated me to serve as Assistant Administrator for the 
Office of Air and Radiation. For the past four and a half 
years, I have had the privilege of working in that office to 
help fulfill EPA's mission, to protect human health and the 
environment.
    After a career of almost 30 years working at the State 
level to improve air quality and to protect the health of 
American families and communities, this opportunity is an 
incredible honor and responsibility and one that I take very 
seriously.
    In the decades since the Clean Air Act was enacted, our air 
is cleaner and safer and our economy has grown and prospered. 
If confirmed, I will consider it my responsibility to work with 
all parties to continue that progress so that both the 
environment and the economy can provide for current and future 
generations.
    The Office of Air and Radiation has an important role over 
the coming years to continue to protect Americans from air 
pollution, especially the most vulnerable among us, including 
our children and our seniors. We also must take thoughtful and 
reasonable steps to address the threat of climate change.
    Responding to climate change is an urgent, public health, 
safety, national security, economic and environmental 
imperative that presents great challenges and great 
opportunities.
    As a Hoosier, I know this very well. Indiana has been and 
continues to be a strong manufacturing State. A reliable and 
affordable energy supply is vitally important to its economy 
and coal is a big part of that. In my 12 years at the Indiana 
Department of Environmental Management, I worked with 
industries across the State, as well as public health and 
environmental groups to implement clean air laws in a common 
sense way that made progress in improving air quality and 
supported jobs and businesses.
    When I worked for Improving Kids Environment, a children's 
health non-profit in Indianapolis, the significance of 
addressing air pollution and climate change for future 
generations hit home even harder as I worked one on one with 
families across Indiana wanting a healthy start and a healthy 
future for their kids.
    I would like to mention three things about how I will carry 
out my responsibilities if confirmed. First, working for State 
agencies in two States has taught me that government, at 
whatever level, works best when all perspectives are at the 
table, when there is openness to good ideas wherever they come 
from.
    I am proud that people from my home State from across the 
political spectrum were able to say when I was nominated that I 
was willing to listen. I am already applying this approach 
while serving as Acting Assistant Administrator and I will 
continue to do so if confirmed.
    Second, we must base our decisions on sound science, a 
transparent record and the law. I am proud of the strong 
scientific and technical expertise in the Office of Air and 
Radiation and throughout EPA and proud of the agency's work 
with the scientific community to make sure that our decisions 
are appropriately grounded in science. If confirmed, I will 
make sure that we continue to do our work that way.
    Third, I will continue to bring to may my job my 
understanding of the State perspective. Implementing the Clean 
Air Act is a partnership--EPA and State, local and tribal 
governments and EPA must be mindful of those perspectives as it 
develops national rules and programs so that they will be able 
to be implemented and effective.
    I know from the conversations we have already had that the 
members of this committee and the other nominees beside me 
share a passion for public service. I look forward, if 
confirmed, to working closely with you the faithfully execute 
the Clean Air Act. We all want to serve the American people by 
providing a safe and healthy environment and the opportunity to 
enjoy it in a strong and growing economy.
    I am grateful for you considering my nomination. Thank you 
very much and I look forward to your questions.
    [The prepared statement of Ms. McCabe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you, Ms. McCabe.
    Ms. Dunkin.

     STATEMENT OF ANN E. DUNKIN, NOMINATED TO BE ASSISTANT 
ADMINISTRATOR FOR ENVIRONMENTAL INFORMATION, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Dunkin. Good morning, Chairman Boxer, Ranking Member 
Vitter and other members of the committee.
    It is my honor to appear before you as President Obama's 
nominee to be Assistant Administrator for Environmental 
Information for the EPA.
    Before I begin, I want to thank my partner, Kathleen, for 
her support today and throughout this process. I also want to 
thank my nephew, Dylan, whom I had the honor to raise, for 
taking time away from his first professional job to be here 
with us today.
    While they are no longer with us, I want to acknowledge my 
parents for making it possible for me to be here today. My 
mother started programming in the 1950s at the University of 
Pennsylvania, when there were only two women in her class at 
Wharton. She has been a lifelong role model for me.
    My father, who believed that all of his children, including 
his daughters, could do anything they set out to do, inspired 
me to pursue my dream, even in the male dominated field of 
engineering and technology.
    My father's family is full of engineers and I have always 
loved technology, so it was no surprise that I studied 
engineering in college. I chose industrial engineering because 
I cared about people and systems as well as things.
    After graduating from the Georgia Institute of Technology, 
I joined Hewlett Packard where I worked for nearly 20 years. I 
started as a manufacturing engineer and quickly moved into 
manufacturing management where I learned the core values that 
were embodied in the HP way and that even today, guide my work 
as a leader, values such as treating people with trust and 
respect, always acting with integrity and accomplishing results 
through team work.
    Over time, I moved from manufacturing management to 
software quality to research and development, to operations and 
then information technology earning progressively more 
responsibility along the way.
    I worked on many exciting projects and programs running 
operations for HP's Internet startup businesses during the dot-
com boom to developing tools to support printer R&D to managing 
IT for Indigo, an Israeli digital press manufacturer that HP 
acquired. My final position at HP was back in R&D as the 
program manager for a major new printer development program.
    Throughout my time in HP's technology intensive 
environment, I learned how to manage, lead and optimize 
technology functions. Since people are any organization's 
greatest asset, I learned how to work with and lead people at 
the same time. From managing a small development team to 
leading a group of 500 programmers as a program manager, I 
developed my professional expertise in designing and running 
technical organizations at one of the best technology companies 
in history.
    After I left HP, I joined the Palo Alto Unified School 
District as the Director of Technology and later, as the Chief 
Technology Officer, where I am responsible for envisioning, 
procuring, and supporting technology solutions to enable the 
work of 12,500 high-achieving K-12 students, along with nearly 
2,000 faculty and staff.
    While I loved building exciting new technology at HP, I 
found that working for the Palo Alto Unified School District 
and helping every student and staff member achieve their 
potential have been more meaningful to me. Working in the 
public sector has allowed me to contribute more profoundly to 
my community than working in the private sector.
    I come to work every morning knowing that my work and that 
of my team is improving the education of every child in our 
district. I am proud of what we have accomplished in the time 
have been with the district.
    If confirmed, joining the Environmental Protection Agency 
would be a natural next step in my personal, professional 
development as it would be an opportunity to contribute not 
just to my local community but to impact the entire country and 
help improve the quality of life for every American.
    While I have not yet worked directly in the environmental 
field, I have had a lifelong concern for environmental issues. 
Having grown up in the 1970s, I was part of a generation that 
experienced the Nation's increasing awareness of the importance 
of caring for our environment.
    Hewlett Packard was an early leader in environmental 
stewardship and environmental considerations were always high 
on our list of concerns in both product development and 
operations.
    In Palo Alto, we emphasize environmentally sound practices 
such as safe technology recycling, reduced energy use and 
overall environmental sensitivity.
    I was thrilled to have been nominated to this job and look 
forward to the chance to bring my experience and expertise to 
bear for this country. Should I be confirmed, it would be my 
honor and privilege to serve as the Assistant Administrator for 
Environmental Information for the EPA and I would work every 
day to be worthy of the opportunity.
    Thank you, Chairman Boxer, Ranking Member Vitter and 
members of the committee, for the opportunity to meet with you 
today.
    I am happy to answer your questions.
    [The prepared statement of Ms. Dunkin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you.
    Mr. Ehrlich.

 STATEMENT OF MANUEL H. EHRLICH, JR., NOMINATED TO BE A MEMBER 
     OF THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

    Mr. Ehrlich. Thank you, Chairman Boxer.
    Good morning, Madam Chairperson, Ranking Member Vitter and 
members of the committee. My name is Manny Ehrlich, and I very 
much appreciate the chance to appear before you today as 
President Obama's nominee to be a member of the Chemical Safety 
and Hazard Investigation Board.
    I have dedicated my entire career to protecting health and 
safety through prevention and investigation of chemical 
incidents, and I am humbled and honored to have been nominated 
to a position that will enable me to apply that experience in 
service to our country.
    I currently reside in northern New Jersey but very much 
look forward to relocating to the Washington area should I 
receive the honor of confirmation. I have spent over 50 years 
in the chemical industry in a variety of positions of 
increasing responsibility ranging from analytical bench chemist 
to Vice President of Health Safety and Relations, to general 
manager of the largest hazardous materials training response 
academy in the United States.
    I am currently a health safety and environmental consultant 
with a broad range of clients around the country.
    I have spent much of my career with BASF, one of the 
largest chemical companies in the world where I progressed from 
plant management to lead emergency response efforts across 
North America. In that capacity, I responded to, managed and 
investigated numerous hazardous material incidents in the 
United States, Canada and Mexico.
    During my career, I concentrated heavily on programs both 
inside and outside of companies that helped improve overall 
chemical worker safety. I have been very active in the American 
Chemistry Council, formerly known as the Chemical Manufacturers 
Association, participating in or leading many committees whose 
primary objectives were to develop and implement programs 
designed to train and educate members of the chemical community 
in improving response and protecting safety.
    Having matured, which is a euphemism for aged, to positions 
beyond the wearing of personal protective equipment, I have 
spent the last 15 to 20 years sharing lessons learned 
throughout my career with members of the chemical industry and 
emergency responders. My focus is primarily centered on 
accident avoidance and prevention, incident investigation and 
root cause determination which includes the critical practice 
of updating tools and techniques required to address each of 
these areas.
    I am currently the on-call chemist for the Chemical 
Transportation Emergency Response Center, also known as 
CHEMTREC in the United States, a 24-hour service that assists 
responders on the scene of chemical incidents. I am also a 
member of the National Fire Protection Association's committee 
that develops competency standards for chemical emergency 
responders.
    My background in chemistry, engineering and education has 
allowed me to take very complex subjects and present them to 
personnel at all levels in an easily understood manner so that 
maximum learning may be garnered by the audience.
    The CSB is nationally and internationally recognized for 
its excellence in investigations and preparation of technical 
information relative to those investigations. If confirmed, I 
will rely upon my half-century of experience to further the 
critical CSB mission in order to support the excellent work 
done by the board and its investigators. I have long shared 
their goals for making the chemical industry a safer place to 
work and protecting communities.
    Sadly, early in my career in the industry, I experienced 
the tragic loss of life of workers in facility accidents where 
I was employed. I made a commitment then and there to dedicate 
my career to preventing such accidents from happening to anyone 
else. Thus, my focus across the years has continued to revolve 
around the commitment to do all within my power to assure that 
employees return from work at days end in the same condition as 
they reported to work that day.
    Finally, this nomination is a watershed moment in my 
career. I can think of no better way, if confirmed, to continue 
to have a positive impact on the safety of the chemical 
industry, its workers and neighboring communities, by applying 
my skills and abilities for the betterment of my country.
    I want to thank Mona Holzberg, Joe Gehrum, and Tim and Toni 
Fay for coming to Washington with me today to lend support. My 
daughter, Beth Kanderski, texted me and said she is here in 
spirit.
    I want to thank you for allowing me to appear before you 
today and look forward to your questions.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Ehrlich follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you all. I want to thank you all for 
your very good statements and very to the point. I am very 
proud of the quality of nominees.
    To all the families here, we really are so glad you are 
here because we know as people with families ourselves, we 
couldn't be here without the support of our families. I am 
really happy you brought them.
    Before I get into my questions, I wanted to ask each of you 
to say yes or no to each of these questions. I will ask the 
question and then go this way around.
    Do you, if confirmed, to appear before this committee or 
designated members of this committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protections with respect to 
your responsibilities?
    Ms. McCabe. Yes, I do.
    Ms. Dunkin. Yes, I do.
    Mr. Ehrlich. Yes, I do.
    Senator Boxer. Second, do you agree to ensure that 
testimony, briefings, documents in electronic and other forms 
of communication of information are provided to this committee, 
its staff and other appropriate committees in a timely manner?
    Ms. McCabe. Yes, I do.
    Ms. Dunkin. Yes, I do.
    Mr. Ehrlich. Yes, I do.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    Ms. McCabe. No, I don't.
    Ms. Dunkin. No.
    Mr. Ehrlich. No, I don't.
    Senator Boxer. I will start my questions.
    Ms. McCabe, this is a report, I trust you are familiar with 
it, on our Nation's air from 2010. The information in there is 
that since 1990, the Clean Air Act has resulted in the average 
emission of the six common air pollutants, including 
particulate matter, VO<INF>x</INF> and NO<INF>x</INF>, dropping 
59 percent, while the U.S. economy grew by 65 percent. 
Americans drove 40 percent more miles, the population grew 24 
percent and our energy use increased 15 percent.
    We have seen a reduction in the pollutants and a big rise 
in the economy. Are you aware of this study?
    Ms. McCabe. I am, Senator.
    Senator Boxer. I assume from your testimony that you 
believe it is really important that as we move forward with 
regulations that we understand that we don't want to stifle or 
hurt people in their jobs. I am assuming you are aware of that?
    Ms. McCabe. Absolutely.
    Senator Boxer. But health comes first. I want to hold up a 
picture of what it looks like out the window in China. Anyone 
who says that this is what is good for America, they won't say 
that but they go after the EPA with a vengeance even though 80 
percent of the people support the EPA doing more.
    I just want you to know, we don't need to speculate. We can 
see what happens in a country where the environment is thrown 
under the bus. I don't need your comments. I am laying those 
out here because the split on this committee is enormous.
    Even my dear friend who I am going to give 8 minutes to 
counter everything I have said, Senator Inhofe has stated that 
if he gets the gavel--he doesn't say if, he says when, which he 
said for a long time--that his first thing is to go after the 
EPA because he says they are going after the petroleum 
industry. I don't think that is the job of this committee to 
risk the public health of the people for any industry.
    We have to grow our economy and make sure we have 
prosperous businesses, while we cleanup the air. We know in 
eastern Europe when the walls came down, you couldn't really 
see the air. The first thing they did was clean it up so they 
could have economic growth.
    [The referenced report follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Ms. McCabe, you said you would base all your 
decisions on science. Could you reiterate that?
    Ms. McCabe. Yes, absolutely, Senator Boxer. Our decisions 
are based on sound science, following accepted and peer-
reviewed methodologies.
    Senator Boxer. The issue has been raised that the rogue, 
crazy person who made believe he was a CIA agent, the catch me 
if you can guy, who is now in jail and has paid back money to 
the taxpayers, that in fact he was making all the clean air 
decisions over there.
    Isn't it true that every decision is peer-reviewed and 
every rule is subjected to public comment before it becomes a 
rule?
    Ms. McCabe. That is absolutely right.
    Senator Boxer. And that science is involved in all that?
    Ms. McCabe. Absolutely, it is.
    Senator Boxer. At every step?
    Ms. McCabe. Every step.
    Senator Boxer. Is it correct that the vast majority of 
public comments on the rules for new power plants, the vast 
majority of those are comments to limit carbon emissions from 
power plants? I understand the agency received over 2.5 million 
public comments, is that correct?
    Ms. McCabe. That is correct.
    Senator Boxer. The vast majority supported EPA actions to 
limit carbon emissions?
    Ms. McCabe. There were many, many comments in support of 
those limitations.
    Senator Boxer. Mr. Ehrlich, can you describe how your 
background--all of you gave beautiful opening statements--in 
the chemical industry gives you the qualifications to do this 
job? You mentioned you witnessed a horrible accident. Where and 
when was that?
    Mr. Ehrlich. It was in Wyandot, Michigan, in 1978 or 1979.
    Senator Boxer. What happened there?
    Mr. Ehrlich. We had an explosion in a chemical plant that 
fatally injured my plant superintendent. I think one of the 
things that has been lacking, at least it was in my experience 
at this point in time, was information wasn't passed along 
basically from generation to generation, if you will.
    I think that is a very important issue for the Chemical 
Safety Board. They have tremendous resources. They have 
tremendous information and it is important to get that 
information out to industry to people who are going to continue 
to work in the industry and make it a safer place to work.
    If nominated, I really hope that is one of my assignments.
    Senator Boxer. Yes, because we have so much information, 
for example, if the plant in Texas had had the right 
information.
    Last question. Ms. Dunkin, EPA plans to use more electronic 
filing of monitoring reports and other documents to support EPA 
in the States' compliance. EPA and the States have had to do 
more with less these days and it is even more important than 
ever that agency staff and the public have access to monitoring 
reports to identify releases of toxic substances that may be 
harming people and the environment.
    Will you work with the Office of Enforcement and Compliance 
Assurance to make sure that timely monitoring data is made 
easily accessible to the agencies, States and the public?
    Ms. Dunkin. If confirmed, it would be my pleasure to work 
with that organization.
    Senator Boxer. We will follow up with you on that.
    Senator Vitter.
    Senator Vitter. I am going to defer to Senator Inhofe so he 
can get back to his other committee. I will follow Senator 
Inhofe.
    Senator Boxer. OK, that is fine. Senator Inhofe has 8 
minutes.
    Senator Inhofe. If I can do an opening statement, can I 
have 5 minutes for questions?
    Senator Boxer. You have 8 minutes. That is what your staff 
asked for, and that is what you were given.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. OK. I am going to talk to my staff then.
    Ms. McCabe, it is good to see you again. Thank you for 
taking time to come to my office last week. I enjoyed our 
visit. We had some disagreements. I expressed grave concern 
over the EPA's distortion of the cost of regulation.
    The cost of regulation is something that has to be 
considered. During the Obama administration, the agency 
regularly understated the cost and overstated the benefits of 
the EPA's rules so that it can get away with more expensive 
regulations that are actually allowed.
    Now that we are 5 years into the Administration, we are 
starting to see the true impact of the President's and the 
EPA's war on fossil fuel. When you compare what has actually 
happened to what the EPA said would happen, it is quite 
startling.
    With the utility MACT, for example, the EPA said it would 
result in the retirement of fewer than 10,000 megawatts of 
electricity generation. This is substantial in its own right if 
it is 10,000. Reality is proving it far worse.
    In direct response to the EPA's rules, power generation 
companies have announced plans to shutter 51,000 megawatts of 
generation. Most of these would be closed down during the next 
53 weeks as the compliance deadline for the utility MACT will 
arrive.
    If this were not bad enough, the EPA in the new 2 weeks 
will go final with the 316(b) rule for water intake cooling 
towers according to the NERF. This rule is expected to take 
another 40,000 megawatts of electricity generation.
    If you add that together, 51,000 and 40,000, that is 91,000 
megawatts of electricity. Together the real world impact of 
these regulations is causing massive risk to our Nation's 
electricity reliability. In fact, one commissioner at FERC 
recently said we are likely to see rolling electricity 
blackouts during the summer months in just a few years. He went 
on to say this could very likely and will very likely happen 
the summer after next.
    Everyone seems to agree these risks are being caused by the 
EPA. We all understand that. Rolling blackouts are coming and 
it is because of this Administration and its policies. The 
Administration is not stopping there. These figures are 
concerns and concerns do not even take into account the new 
greenhouse gas regulations that EPA is rushing to enact.
    The new source performance standards, NSPS, on new and 
existing power plants are going to make it economically 
impossible to maintain any diversity in our electricity and 
fuel supplies. This will make us even more vulnerable to supply 
shortages and to price shocks. To make matters worse, the 
Administration is making strides to regulate hydraulic 
fracturing and methane emissions from the natural gas 
production and transmission process which could further drive 
up the price of energy and electricity. This kind of regulatory 
onslaught is no way to run the machine called America.
    During our meeting, Ms. McCabe, you told me that you were 
designing your regulations to give States flexibility as they 
begin to implement these policies. But the flexibilities 
allowed only point to renewable fuels, which are neither 
reliable nor affordable. Americans cannot run on renewables 
alone but that is where the war on fossil fuel leads.
    The impacts we are beginning to see are extremely negative. 
The Administration and the EPA don't seem to care about that. 
The electricity affordability and reliability is no part of the 
EPA's thought process.
    I made this commitment yesterday. I am going to have a 
Congressional Review Act and I am going to use that on every 
one of these regulations because the problem you have here is 
it all sounds very good here in this committee but when it gets 
down to it, the people who are elected need to be participating 
in the process.
    You, Ms. McCabe, are able to do it. You are not elected, 
you are taking over and you are a very quality person. I have 
enjoyed working with you in the past but you are not elected 
and these guys are.
    The CRA is an ability to make sure that people understand 
the penalties we pay for these excessive regulations, the cost 
in terms of money, in terms of employment and they can get 
involved in the process.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Ms. McCabe, it is good to see you again. Thank you for 
taking time to come into my office last week. I enjoyed meeting 
you.
    During our meeting I expressed grave concern over the EPA's 
systematic distortion of the cost of its regulations. During 
the Obama administration, the agency has regularly understated 
the costs and overstated the benefits of the EPA's rules so 
that it can get away with more expensive and onerous 
regulations than are actually allowed.
    Now that we are 5 years into the Obama administration, we 
are starting to see the true impact of the President's and the 
EPA's War on Fossil Fuels. And when you compare what's actually 
happening to what the EPA said would happen, it's quite 
startling.
    With the Utility MACT rule, for example, the EPA said it 
would result in the retirement of fewer than 10,000 MW of 
electricity generation.
    This is substantial in its own right, but reality is 
proving to be far worse. In direct response to EPA rules, power 
generation companies have announced plans to shutter 51,000 MW 
of generation. Most of these will be closing down in the next 
53 weeks as the compliance deadline for the Utility MACT rule 
arrives.
    And if this were not bad enough, the EPA--in the next 2 
weeks--will go final with its 316(b) rule for water intake 
cooling towers. According to the NERC, this rule is expected to 
take another 40,000 MW of electricity generation offline.
    Together, the real world impacts of these regulations are 
causing a massive risk to our Nation's electricity reliability. 
In fact, one Commissioner of FERC recently said that we are 
likely to see rolling electricity blackouts during the summer 
months in just the next few years. What everyone seems to agree 
on is that these risks are being caused by the EPA.
    So this is what is already happening. Rolling blackouts are 
coming, and it's because of the Obama administration.
    But the Administration is not stopping there. These figures 
and concerns do not even take into account the new greenhouse 
gas regulations the EPA is rushing to enact. The New Source 
Performance Standards on new and existing power plants are 
going to make it economically impossible to maintain any 
diversity in our electricity fuel supply. This will make us 
even more vulnerable to supply shortages and price shocks.
    To make matters worse, the Administration is making strides 
to regulate hydraulic fracturing and methane emissions from the 
natural gas production and transmission processes, which could 
further drive up the price of energy and electricity.
    This kind of regulatory onslaught is no way to run this 
machine called America.
    During our meeting, Ms. McCabe, you told me that you were 
designing your regulations to give States flexibility as they 
begin to implement these policies. But the flexibilities 
allowed only point to renewable fuels, which are neither 
reliable nor affordable. They may work in some scenarios and as 
part of our broader energy portfolio--but America cannot run on 
renewables alone. But that is the world where the War on Fossil 
Fuels leads.
    The impacts we're beginning to see are extremely negative, 
but the Administration and the EPA do not seem to care. 
Electricity affordability and reliability clearly have no part 
in the EPA's thought process.
    But this is something I want to change, and it's why I'm 
committed to using the Congressional Review Act on any 
significant EPA regulation that comes out until the EPA gets 
honest about the cost accounting it uses in its rules. Because 
if the agency is not going to be honest, then the EPA, the 
President, and the Members who support their policies need to 
own them, which in the Senate means up or down votes on whether 
to keep or get rid of the EPA's regulations.

    Senator Inhofe. With that, I would ask you, Ms. McCabe, 
when the EPA put out its utility MACT rule, it estimated it 
would result in retirement of fewer than 10,000 megawatts at 
power plants. That was 2 years ago. Do you stand by that 
assessment?
    Ms. McCabe. Senator Inhofe, let me first say how much I 
enjoyed meeting with you the other day and look forward to 
working with you.
    As I recall from that record, what was estimated as part of 
that record was that less than half of a percent of coal-fired 
generation would retire as a result of the MACT's rule.
    Senator Inhofe. In spite of what they have said, a recent 
report concluded that 51,000 megawatts of generation as a 
direct result of this regulation and most of this will occur in 
the next 53 weeks, as I said in my opening statement, when you 
add to that the 316 rule.
    FERC Commissioner Moeller recently said these reductions to 
our baseload electricity generation could result in rolling 
blackouts in the next few years. If we find ourselves in that 
situation of blackouts and you are in the position you own 
right now, will you admit that this the fault of the EPA and 
its regulations?
    Ms. McCabe. I am not familiar with the specific statistics 
that you are citing, Senator. I will tell you that we work very 
closely with the Department of Energy and with FERC.
    Senator Inhofe. That's fine. This was 1977 or whenever it 
was the Clean Air Act was passed or the amendments, section 
321(a) says the Administrator shall conduct continuing 
evaluations of potential loss or shifts of employment which may 
result from the administration or enforcement of the provisions 
of this Act and applicable implementation plans.
    You said in my office, when I read this to you--to me this 
is very specific--what is vague about this statement?
    Ms. McCabe. I don't think I suggested anything was vague 
about the statement, Senator. The agency does conduct ongoing 
reviews and inquiries into the expected impacts of the rules 
through the regulatory impact assessments that we do with every 
single rule.
    Senator Inhofe. If you are doing that, you are doing it 
internally because nobody knows this is going on. Since you 
made that statement, let me ask this question.
    I have a Senate bill, we now have quite a number of co-
sponsors, that will put teeth in 321(a) because I don't believe 
you have been complying with this. The bill that we would have, 
the amendment I would have that we are going to try to get 
through would say you have to do it before you pass or bring 
forth any more regulations.
    In other words, it puts teeth in it, says you have to do 
it. Would you support that?
    Ms. McCabe. I am not going to take a position on the bill, 
Senator, but I will tell you that through the rulemaking 
process, which is a public and open process, we do conduct 
economic analyses.
    Senator Inhofe. If that is true, then why would you not 
want to support legislation that makes it a requirement because 
you may be gone some day and someone else may be in there and 
they may not be as cooperative as you are?
    Senator Boxer. Senator Vitter.
    Senator Vitter. Thank you, Madam Chair.
    Let me briefly respond to some of the Chair's comments in 
her time.
    First of all, the report she highlighted, I just want to 
point out, that half the time period covered by that report 
covers EPA under Republican leadership, so that report reflects 
EPA under half Republican and half Democratic leadership.
    Second, let me ask Chairman Boxer's staff to hold up the 
smog poster. I just want to state for the record no Republican 
supports anything like that situation and certainly we have 
supported and will support regulations that always avoid that 
and reduce that sort of risk.
    Third, let me point out that we are probably going to talk 
99 percent of our time today about carbon and greenhouse gas 
issues that have nothing to do with smog and particulate 
matter, nothing at all. I just wanted to point that out.
    I know a lot of political debate in Washington is pretty 
cartoonish, but I would hope that in the committee of 
jurisdiction for the EPA, we can get beyond that and talk about 
facts and substance in a meaningful way. That is what I am 
going to try to do.
    Ms. McCabe, electricity reliability, yesterday, as I am 
sure you know, Administrator McCarthy noted that EPA needs to 
closely align with DOE and FERC when designing the greenhouse 
gas emissions proposal for existing power plants.
    Last week, importantly, at FERC, there was a discussion 
about how the sizable increase in electricity demand in January 
was served mostly from coal-fired generation while natural gas 
generation actually declined. Have you reached out to FERC to 
discuss those findings since it is relevant to the greenhouse 
gas emission discussion?
    Ms. McCabe. We do communicate with FERC and with DOE on an 
ongoing basis about our rules.
    Senator Vitter. Do you personally talk to FERC about this 
issue?
    Ms. McCabe. I have not personally talked to FERC about the 
issue to which you just referred.
    Senator Vitter. Has your staff directly talked to FERC 
about their presentation last week and the consequences of 
that?
    Ms. McCabe. I don't know, Senator.
    Senator Vitter. You can supplement the record on that.
    Ms. McCabe. Sure.
    Senator Vitter. Do you agree that this scenario illustrates 
the need for additional sources of reliable energy in major 
quantities besides natural gas or electricity generation?
    Ms. McCabe. I agree that we need to pay close attention to 
making sure that we have reliable energy supply and that a 
diverse energy supply is important to this country.
    Senator Vitter. Thank you.
    I want to move to the Endangered Species Act. EPA's 
proposed NSPS rule will likely force a shift away from coal-
fired energy toward many things that are much more land 
intensive sources of energy. In addition, things like wind have 
the potential to kill endangered species like the California 
condor.
    According to Fish and Wildlife Director Dan Ashe, his 
agency has an obligation to consult when there are potential 
impacts to endangered or threatened species. Yet, EPA and his 
agency are not consulting on that NSPS rule. What are the 
specific legal and policy reasons behind EPA not consulting 
with Dan Ashe and his agency about that while consulting, for 
instance, on 316 rulemaking which would seem to have a much 
less serious potential impact?
    Ms. McCabe. I am familiar with the Endangered Species Act 
requirements. I want to emphasize that we are early in the 
process of this particular rulemaking. Before we finalize any 
rule under this program, we would make sure that we satisfied 
our obligations under the Endangered Species Act.
    Senator Vitter. Would that include formal consultation, 
which has not yet been triggered, with Fish and Wildlife?
    Ms. McCabe. If that is determined to be required, Senator.
    Senator Vitter. Why wouldn't that be appropriate given what 
I talked about, given the shift toward much more land intensive 
energy sources and wind which has consequences on birds?
    Ms. McCabe. I think as we move through the rulemaking 
process, we need to evaluate exactly what is required under the 
Endangered Species Act and that is what we intend to do.
    Senator Vitter. Finally, on social cost of carbon, as you 
know we discovered last November that your office provided 
technical assistance for modeling on this ongoing effort. I 
have three related questions.
    One, did you participate in the interagency working group? 
Two, did you sign off on any contributions made by your office, 
including the technical assistance and modeling provided? 
Three, in our continued effort to bring transparency to a 
process that seems very closed, would you commit to providing 
the committee with names and vitals of those in your office who 
participated or signed off on EPA's contributions to the 
development of the social cost of carbon estimates and if so, 
by what date?
    Ms. McCabe. I did not personally participate in those 
discussions. That is a process that is not run by the Office of 
Air and Radiation, nor by the EPA, so I am not in a position to 
commit to providing information about it but I will be glad to 
take that question back.
    Senator Vitter. If you could answer the other parts of the 
question for the record, did you sign off on the work that did 
come out of your office related to this? Will you provide 
names, titles, participation levels of anyone out of Air and 
Radiation on this project?
    Ms. McCabe. I am sorry, I thought I caught most of the 
parts of those questions. I did not officially sign off in 
writing on participation. Certainly EPA scientists and 
technical experts do participate in various interagency 
workgroups, so I was aware of that. As I said, I would be glad 
to take back your request that we provide more specific 
information.
    Senator Vitter. The request is specifically about your 
office.
    Ms. McCabe. I understand.
    Senator Vitter. It is fully within your bailiwick. We are 
trying to understand this process which has been quite hidden, 
quite frankly. We just want to know who is in it and what their 
involvement was.
    Ms. McCabe. I understand your interest, Senator.
    Senator Boxer. Senator Carper.
    Senator Carper. Thank you. Ms. McCabe, nice to see you. 
Thanks for visiting with me here recently.
    I have been following the status of renewable fuel 
standards and our progress toward advanced biofuels. It is a 
matter of great interest to us in Delaware.
    On November 15, 2013, last year, the EPA issued proposed 
renewable fuel volume standards for 2014. As you are well 
aware, these standards were supposed to be finalized I believe 
last year in 2013 before the compliance year begins. Recently, 
we heard these standards will not be out until June 2014, so I 
have a couple questions.
    The first one is do you have a better idea today when new 
standards will be released? If in June, do you expect the 
industry will ask for additional time for compliance similar to 
what happened this year?
    Ms. McCabe. I do expect those rules will be finalized in 
June. As we said previously, we will certainly consider the 
needs for compliance time as we finalize those rules.
    Senator Carper. My question is, is this the new norm? Do 
you expect future rules to be implemented this late in the 
game?
    Ms. McCabe. It is very much our desire to be timely with 
the issuance of these rules. In fact, in this particular 
rulemaking, we laid out some alternatives to set up a more 
routine process. We understand that certainty and 
predictability is really important to the industry and would 
very much like to be able to get onto a path where we are 
meeting those timely obligations in a routine way. Hopefully we 
will be able to lay out a more routine approach.
    Senator Carper. To my colleagues, to the extent that we 
want to make sure the industry, those who count on these rules 
actually being developed and promulgated, to the extent we can 
actually vet nominations and where they find favor, approve 
them, confirm them, we actually provide that certainty. I urge 
my colleagues to keep that in mind.
    Staying on the subject, what has EPA done to increase 
transparency in the REN markets and does the EPA intend to do 
more?
    Ms. McCabe. We do provide information on our Web site and 
our data base about the REN market. We understand the interest 
in that. We have a rule working its way through the process 
that addresses inappropriate development and sale of REN, so we 
are very mindful of the need for greater transparency.
    Senator Carper. I am going to channel George Voinovich for 
a minute, our former colleague and Governor, and here on this 
committee for a number of years. George and I worked with a 
number of my colleagues, including Jim Inhofe, Democrats and 
Republicans on diesel emission reduction and legislation, one 
of our proudest accomplishments over the last dozen or so 
years.
    I was encouraged by much of what was in the President's 
Climate Action Plan. However, I was surprised and in fact, 
disappointed to see what was not included and that is to 
support our efforts to reduce black carbon here at home.
    Recent studies have shown, as I think you know, black 
carbon was the second most damaging greenhouse agent behind 
carbon dioxide. The most effective way to reduce black carbon 
is by cleaning up diesel emissions. Do you believe the Diesel 
Emission Reduction Act and other domestic clean diesel programs 
should be part of our strategy to address climate here at home?
    Ms. McCabe. These are very important programs for public 
health in this country. I agree.
    Senator Carper. Why didn't the Administration include it?
    Ms. McCabe. There were some very, very difficult choices 
that needed to be made in the President's budget this year, 
Senator Carper, and that unfortunately was one of them.
    Senator Carper. It was a bad choice. We are going to do 
everything we can to reverse that.
    I want to ask you a question, Ms. McCabe, about reaching 
out to business. Since you have been at EPA, what have you done 
to make sure that all stakeholders are heard during the 
regulatory process, especially those that will be impacted the 
most?
    Ms. McCabe. This is extremely important. As I said in my 
opening statement, we can't make good decisions without having 
everybody at the table.
    With respect to the power plant regulations we were 
discussing a minute ago, we have had over 300 meetings, even 
before a rule is out on the street, a proposal, to make sure 
that we are hearing from everyone.
    I and my staff are very regularly in contact with 
stakeholders of all sorts, including business and industry on 
any rules with which we are proceeding and other programs 
because we do a lot in the Office of Air and Radiation that is 
not regulatory to make sure that we have them at the table and 
that we are getting their good ideas.
    Senator Carper. Thanks so much.
    Thank you, Madam Chair.
    Senator Boxer. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Ms. McCabe, I always have concern about loss of electric 
generation capacity in the country as a result of closures of 
coal-fired power plants. I don't know if you have done anything 
to evaluate in terms of what gets retrofitted versus what just 
closes in terms of energy generating capacity, will the 
decisions be made to retrofit, go to the expense of that versus 
just close a power plant based on greenhouse gases, ozone, 
mercury, whatever.
    Could you give me an estimate of what electric generation 
capacity you think is going to get closed rather than 
retrofitted as a result of the EPA's new and proposed rules 
under the Administration?
    Ms. McCabe. We do pay a lot of attention and we have 
particularly in the mercury and air toxic standards. We 
consulted with those in the energy field to try to get a sense 
of what the effect would be on the industry. There are many, 
many things that go into a decision of a power plant closing.
    Senator Barrasso. Cumulative impact, though? Do you have an 
idea of what kind of generating capacity is going to be lost 
cumulatively for the country as a result of the rules and 
regulations?
    Ms. McCabe. In each rule that we do, we look at the impacts 
of that rule in the context of the rules that have gone before 
it.
    Senator Barrasso. Do you have any idea of the cumulative 
impact of what is being proposed and what has been proposed on 
actually closing electric generation for the country?
    Ms. McCabe. It actually would be very difficult to estimate 
the closures versus retrofits due to environmental regulations 
alone because there are so many factors that go into those 
decisions. I will tell you that the facilities we see making 
the decisions to close right now tend to be the older, less 
well controlled and less used power plants.
    Senator Barrasso. There is not an assessment of the overall 
loss of electricity generation potential.
    The President, when he was running in 2008, talked about 
the issue of coal. Under his plan, he said electricity rates 
wouldn't necessarily skyrocket. I look at all the States where 
there are coal-fired power plants and the impact on people's 
electric bills. I guess the question is where is the same 
affordable and reliable replacement power for all of those 
folks who I worry about going into energy poverty in short 
term? If the coal-fired power plants close, what happens in 
this country?
    Ms. McCabe. Senator, this is a very important issue. As I 
mentioned in my opening, I come from Indiana where people rely 
on coal--90 percent I think of the State's power comes from 
coal.
    Senator Barrasso. That is what Senator Evan Bayh used to 
say, so it is important in Indiana, yes.
    Ms. McCabe. I am glad that I agree with Senator Bayh.
    We looked at the expected effects on electricity costs when 
we did the mercury and toxic rules in consultation with DOE and 
other agencies. We estimated that electricity prices might go 
up by 3 percent which is well within the range of normal 
fluctuations in electricity prices. This is an issue that we 
look at. It is in our regulatory impact assessment process so 
is open to public comment and review, as is every rule that we 
do.
    Senator Barrasso. The EPA stated in their proposed rule for 
new coal-fired power plants that carbon capture and storage for 
coal is commercially available. I strongly disagree. I believe 
as industry has stated, technology is not currently and may 
never be commercially available.
    My question is, are you aware of any effort or have you 
participated in any conversations in your office to consider 
carbon capture and sequestration standards for new and existing 
natural gas-fired power plants?
    Ms. McCabe. When we put out the proposal under 111(b) for 
new power plants, we looked at the information that was 
available for both coal-fired and gas-fired power plants. We 
have to go through a very well established process to determine 
the best system of emission reduction. For the coal sector, 
because of the availability and use, in some cases for decades, 
of carbon capture and sequestration technology, we felt that it 
had been adequately demonstrated for the coal industry.
    We did not find the same information available for natural 
gas which, as you know, is already much lower emitting.
    Senator Barrasso. Do you believe the technology is there 
for natural gas for carbon capture and sequestration?
    Ms. McCabe. I don't believe that we have a record to show 
that it is the best system of emission reduction as required 
under the law.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. I am going to call on Senator Whitehouse but 
before I do, I am going to put a couple of things in the record 
I think Senator Barrasso would find interesting.
    In December 2013, Michigan's DTE Energy announced it was 
lowering rates for retail customers by 6.5 percent in 2014 
because of lower fuel supply costs. The average residential 
customer would see a savings of $80 a year and business rates 
will drop.
    AEP, American Electric Power, on January 14, proposed a 
rate reduction to Ohio customers beginning in the summer of 
2015 because of falling prices for electricity in the wholesale 
market because of decreased demand.
    It goes on and I will put the rest of that in the record.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T7799.115
    
    [GRAPHIC] [TIFF OMITTED] T7799.116
    
    Senator Boxer. It is also important to note--as you defend 
coal which is your absolute right and I respect you totally for 
it--that the Koch Brothers said so much natural gas has been 
discovered from shale drilling that gas is very, very cheap 
now, so electricity from gas is cheaper than electricity from 
coal.
    Jim Rogers, CEO of Duke Energy, said ``The new climate rule 
is in line with market forces. Anyway, we are not going to 
build any coal plants. In any event, you are going to choose to 
build gas plants every time regardless of what the rule is.'' 
There are other quotes backing that up. We will put that side 
by side with Senator Barrasso's comments.
    I will turn to Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Madam Chair.
    Ms. McCabe, I was encouraged to see that the carbon 
pollution standards for existing power plants have been sent to 
OMB. I believe that happened last week.
    The Presidential memorandum on power sector carbon 
pollution standards instructed EPA to work with the States 
while formulating those standards. What can you tell us now--I 
understand it is over at OMB and the text of the bill has not 
been made public, the standards have not been made public--what 
can you tell us about how you have reacted to the instruction 
to work with the States while formulating these standards?
    Ms. McCabe. Since late last summer, I personally, as well 
as my staff and the Administrator, have had dozens and dozens 
of meetings, phone calls, conference calls and opportunities to 
discuss these rules with the States. It has been an incredibly 
helpful and fascinating process.
    Actually there is a lot of commonality among what we are 
hearing from the States, even though there certainly are 
differences in State views about these issues. They are things 
like we need to make sure we provide as much flexibility in the 
rules as we can for States to develop their plans. Of course 
this is built into 111(b); it is all about EPA setting the 
national expectation but then States building a plan that can 
be suited to their particular State situations.
    Having been a State regulator myself, I am very aware of 
the State's role and responsibility and opportunity in that 
partnership, in that element of the Clean Air Act.
    Senator Whitehouse. If a State wished to step in, it could 
engage under these rules to reduce carbon in ways beyond simply 
what including plants could do in terms of reducing their 
emissions?
    Ms. McCabe. Many States are very forward looking right now 
in things they are doing to reduce the carbon intensity in 
their States. They would certainly be able, we hope, to write 
guidelines that will provide them as much flexibility as 
allowed by the law to pursue those sorts of things.
    Senator Whitehouse. When you are looking at the economic 
effects, you are allowed to look at economic effects, are you 
not?
    Ms. McCabe. That is right.
    Senator Whitehouse. When you look at the economic effects, 
do you look broadly at the economic effects with concern on the 
one hand there may be some increases in power costs to 
individuals as a result of changes to different industries.
    On the other hand, I was just in Iowa and they have, I want 
to say, 28 percent of their power coming from wind. They are 
manufacturing turbines at a company called TPI in Iowa. I think 
they have manufactured 100,000 blades. They are paying farmers 
thousands of dollars to locate the wind turbines on their 
farms. You can farm up to within 20 feet of them, so it doesn't 
interfere too badly with the farmer's use of his land for 
agricultural purposes.
    These are local jobs in Iowa and they are important enough 
to Iowa that the Iowa legislature unanimously--not just 
bipartisan but in unanimous fashion--passed a resolution asking 
us to continue the production tax credits to help support this 
industry that is so important to Iowa.
    Would those types of considerations come into your economic 
analysis as well, the local jobs, local industry and local 
economic growth that can be created when you move away from 
fossil fuels?
    Ms. McCabe. To the extent that there is data and that there 
are approved methodologies available for us to evaluate those 
sorts of impacts, we certainly will, Senator. I want to mention 
that those windmills are becoming more and more prevalent in my 
home State as well as you see across the corn fields.
    Senator Whitehouse. We hope they are going to be prevalent 
off the shores of Rhode Island fairly soon as well. We have 
some going in offshore.
    My final comment to you is I would ask that you not be 
deterred from doing what is the right thing to do 
administratively under the theory that this should be handled 
by Congress and the Administration shouldn't act under its 
administrative authorities while Congress isn't acting 
legislatively.
    I think, frankly, that is an unfair comment when people 
make that because the polluting industries have basically got 
Congress locked down. It is very hard to negotiate with 
somebody over a good carbon bill when they are pretending that 
carbon pollution doesn't cause climate change, when they are 
pretending that the 10 inches of sea level rise we have seen 
off Rhode Island isn't real or doesn't matter.
    Until people are willing to come out of their bunker and 
say OK, this isn't real, let's negotiate, we are not going to 
get anything done. They shouldn't both stop negotiations in 
Congress and then tell you that you shouldn't act until 
Congress has taken this up. They are the ones who are causing 
Congress not to take it up. I hope you will go ahead boldly and 
follow the facts and science.
    Thank you.
    Senator Boxer. Senator, thank you so much.
    Senator Vitter made a good point when he showed the great 
progress that the Clean Air Act has achieved--amazing, lives 
saved, working days saved, children's visits to the emergency 
room saved--since 1990 and the Clean Air Act amendments. 
Senator Vitter makes a point. Half of those were controlled by 
Republicans, half were controlled by Democrats.
    It is true but I remember the days when this committee was 
led by a Republican, John Chaffee, who was so pro-environment 
and from Rhode Island. The environment was a bipartisan issue. 
It breaks my heart to see what has happened.
    In this committee, when it is infrastructure, we are really 
on the same page and I am so grateful for that. We work very 
well together. On the environment, it is so difficult. I would 
argue to my friend that because it is no longer a bipartisan 
issue, things have changed.
    I would put in the record an executive summary of a report 
that showed in the 112th Congress, the last Congress, there 
were 95 votes to undermine the Clean Air Act protections, 
including votes to repeal the health-based standards that are 
the heart of the Clean Air Act and block EPA regulation of 
toxic mercury and other harmful emissions from power plants. 
Those all passed.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Then in the 113th, and we are still in it, 
the House has voted 20 times to weaken the Clean Air Act. This 
has nothing to do with climate change. This is direct assault 
on the Clean Air Act. Unfortunately, we stopped it in the 
Senate and it didn't go anywhere. Even if it did, the President 
would definitely veto that. I am convinced of that. Just by the 
grace of God we have been able to stop the repeal of all the 
very important Clean Air Act. I won't even go into the Clean 
Water Act.
    The last point I am going to make is this. My colleagues 
are very astute, and every time I show a picture of China--
let's show it again--they point out what does this have to do 
with us? We don't want to do that. Of course they don't want to 
do that. It is the result of what they are trying to do to the 
Clean Air Act that would eviscerate it.
    I remember in Los Angeles, we had 110 days, I think, a year 
of alerts. We had that there. I don't want to make it up; I 
want to show you the absolute truth--166 days in Los Angeles 
before the Clean Air Act kicked in, where you couldn't go 
outside and now it is zero. Now hold up the picture of China. 
This is not rhetoric, this is proven fact and science.
    My friends always say whenever we talk about climate change 
that climate change has nothing to do with these kinds of air 
quality problems. I went back and looked at the endangerment 
finding which the draft was written by George Bush's 
Administration and passed by the Obama administration and 
upheld by the Supreme Court.
    Listen to this. ``Climate change is expected to increase 
regional ozone pollution with associated risks in respiratory 
illnesses and premature death.'' That is in the Federal 
Register, 66525. Then there is this one. ``Climate change can 
affect ozone by modifying emissions of precursors, atmospheric 
chemistry, transport and removal. This is consistent. There is 
now consistent evidence from models and observations that 21st 
century climate change will worsen summertime surface ozone in 
polluted regions of North America compared to future with no 
climate change.
    ``In addition, there is an expectation there will be an 
increase in levels of ambient ozone leading to increased risk 
of morbidity and mortality from exposure to ozone.''
    All of these are the effects of climate. I hear this whole 
argument from my friends on the other side--climate change, 
that's carbon, that doesn't hurt anything. Just read the 
science and the Supreme Court decision that said absolutely 
carbon is a pollutant under the Clean Air Act. As much as you 
want to, you can't separate dirty, filthy air from carbon 
because that is part of the problem.
    I want to say to you because my time is running out, I 
don't have a lot of questions for the three of you and I will 
tell you the reason. I just think you are eminently qualified 
and I am proud of these nominations. I am proud of your 
motivation, each of you, in accepting this challenge. It is 
hard to put yourself out here, it is hard to be the recipient 
of some of these questions on both sides. We are tough, I admit 
that and part of your job is to respond and you have. You have 
responded with dignity and the facts.
    Thank you very much.
    With that, I will call on Senator Vitter.
    Senator Vitter. I have just a brief rebuttal.
    Chairman Boxer, again, I think to hold up the poster from 
China and suggest that result is a Republican agenda is absurd 
and it is completely irresponsible.
    Senator Boxer. Let me correct the record.
    Senator Vitter. Can I please have my time undisturbed as 
you did?
    Senator Boxer. No, no, no. I will give you an extra 3 
minutes.
    Senator Vitter. And you will continually interrupt which is 
unprofessional.
    Senator Boxer. I am not unprofessional.
    Senator Vitter. You are interrupting me. I gave you 
uninterrupted time. It is my time to speak.
    Senator Boxer. I am the chairman. You characterized my 
comments and when one person characterizes the comments, the 
other person has the right to rebuttal. I will give you an 
additional 3 minutes. You will have 8 minutes.
    Senator Vitter. Uninterrupted? Will it be uninterrupted?
    Senator Boxer. Yes, I will reserve my time for when you are 
done, if I have to respond, but I would urge you not to 
characterize what I said. I never said it was the Republican 
agenda.
    Could you hold up the picture? What I said was, when you 
try to repeal 28 times various portions of the Clean Air Act, 
when you try to stop a rule that will cleanup coal-fired plants 
and that rule, by the way, isn't even done yet Senator 
McConnell is trying to repeal it before it is even put into 
place, you don't intend for this to happen. Trust me, the 
leaders in China didn't either. This is not good for them.
    We have seen what happens when you don't have Clean Air Act 
protections in place. I never said it was part of the agenda; I 
said it would be a consequence of repealing all of these 
landmark laws.
    Now I will turn it over to Senator Vitter for 8 minutes.
    Senator Vitter. Uninterrupted, thank you.
    Again, you are saying that poster is a consequence, that 
poster which is laughable is a consequence of Republican 
proposals. That is exactly what you said and that is 
ridiculous, cartoonish and irresponsible.
    We just passed in this committee four environmental bills 
on a broad bipartisan basis. The graph you just showed of bad 
air days declining in California in 1976 is under Republican 
national governance as much as Democratic national governance.
    To talk about amendments to the Clean Air Act, yes, the 
Clean Air Act is, in fact, where the whole carbon debate is 
centered. That is the vehicle inappropriately, in our opinion, 
for this administrative onslaught. Yes, of course there are 
going to be proposals about the Clean Air Act. Nobody is trying 
to repeal the Clean Air Act. Folks are trying to move forward 
with the Clean Air Act according to its intention, in my 
opinion, and that agenda.
    To suggest that somehow that is the same as smog and 
particulate matter and we are trying to repeal the Clean Air 
Act is just completely cartoonish. For the committee of 
jurisdiction to sort of dip that low to create a cartoon 
debate, I don't think serves anyone well at all.
    Senator Boxer. You are done?
    Senator Vitter. Yes, I'm done.
    Senator Boxer. Is Senator Markey going to speak?
    As long as I have some time, that photo is not a cartoon.
    Senator Vitter. Thanks, Madam Chair.
    Senator Boxer. You're welcome.
    That photo is not a cartoon, it is the reality for people 
who live in a country where the environment has been thrown 
under the bus.
    House Republicans even voted to rescind EPA's regulation to 
reduce emissions of sulfur dioxide and nitrogen oxide from 
power plants that cause ozone and particulate matter violations 
in downwind States.
    People can walk out, it is their right. They can say I 
reached a new low by showing a picture that is clearly not made 
up or a cartoon but is reality, or a chart. They can do that 
but here is the deal. I am going to tell the truth and here is 
the deal, the truth.
    I am reading from a report, Energy and Commerce Committee, 
House Republicans voted to repeal a rule that will prevent up 
to 34,000 deaths, 15,000 heart attacks, 400,000 cases of 
aggravated asthma, and 1.8 million lost work days each year and 
produce health benefits of up to $280 billion annually, 
outweighing its estimated annual cost by as much as 350 to 1.
    That is unbelievable. That is just one regulation, reducing 
emissions of sulfur dioxide and nitrogen oxide.
    Senator Markey was over in the House through a lot of these 
votes. I know he knows what they are. This is real. Say what 
you want, colleagues, or leave, it doesn't matter. The facts 
are the facts and the American people want their air clean and 
they want their water safe. They don't want chemicals 
exploding.
    I am sorry to say and reiterate what has happened in this 
country until the people demand it to change. The environment 
has become a partisan issue and it hurts me to say it because 
when I started in politics, it was totally a bipartisan issue. 
As a matter of fact, the leader in my home county was a 
Republican named Peter Behr who was a beloved senator, a State 
senator, whom I supported, who was the leader on a clean and 
healthy environment.
    It saddens me that we have to face vote after vote, 28 
times, 38 times, 48 times, environmental riders. It is wrong. I 
won't be intimidated.
    Senator Markey.
    Senator Markey. Thank you, Madam Chair, very much.
    We welcome our nominees. You are each eminently qualified 
and we thank you for your willingness to serve our country in 
these enhanced roles.
    Ms. McCabe, you worked up in Massachusetts over the years, 
and that is going to qualify you to be the one that can 
understand and translate Administrator McCarthy's Boston accent 
for the others at EPA. I think that is going to be a very 
important role for you.
    Ms. McCabe, you have an important task before you in 
setting standards to reduce carbon pollution from power plants 
in the United States. I am confident that it can be done in a 
way which is good for the environment and good for the 
pocketbooks of the people in our country.
    I am confident because of what I have seen happen in my own 
State of Massachusetts. There has been an 11 percent annual 
growth in the clean energy sector in the creation of jobs as 
the State has invested almost 90 percent of the proceeds from 
the regional greenhouse gas actions into energy efficiency, 
helping to make our State amongst the most energy efficient in 
the Nation.
    In addition to working with States that primarily produce 
fossil fuels, will you also be working with States that are 
innovating new ways to cut carbon pollution while growing their 
economies as you craft new standards for carbon pollution with 
power plants?
    Ms. McCabe. We certainly will, Senator. You are absolutely 
right that States like Massachusetts are leaders on energy 
efficiency and other very innovative and positive ways to 
reduce the energy we use in ways that save people money.
    Senator Markey. We are a small State but we now have 5,000 
companies with 80,000 jobs in the clean energy sector in 
Massachusetts. Most of that is just in the last 5 or 6 years, 
tremendous growth and it reflects the innovation that can 
happen as we move to these new technologies of the 21st 
century.
    I also wanted to focus on methane emissions from natural 
gas, which also impact the climate, public health and the 
energy bills of most Americans. I would just note for my 
Republican colleagues who have expressed concern that 
protecting people's health might increase the cost of 
electricity, that they should be concerned that exporting 
America's natural gas overseas will also raise electricity 
prices and harm the manufacturing resurgence and job growth 
America has been experiencing in the last few years.
    The explosion in Harlem in March tragically underscored the 
threat that old natural gas distribution pipelines can pose. A 
report I released last summer found that gas customers in 
Massachusetts paid up to $1.5 billion in extra charges from 
2000 to 2011 because of the leaking gas pipelines.
    The cost to consumers nationwide was in the tens of 
billions. Besides wasting money, this leaked natural gas, which 
is primarily methane, is a potent climate pollutant.
    Ms. McCabe, the Interagency Methane Strategy that was 
recently released raises concerns about methane leaks on the 
distribution side of the natural gas system. Is that something 
the EPA will be looking at further?
    Ms. McCabe. Yes, in cooperation with the Department of 
Energy, which has significant responsibilities in these areas. 
The Office of Air and Radiation doesn't have as much 
responsibility on those particular aspects, but we will 
certainly be working with the Department of Energy on those 
issues.
    Senator Markey. Finally, Ms. McCabe, just a quick comment 
on ongoing work at the EPA on bioenergy. In 2011, the EPA 
granted a 3-year exemption from regulation under the Clean Air 
Act for carbon emissions from bioenergy facilities. EPA then 
commissioned an expert panel of the Science Advisory Board to 
review the agency's proposed bioenergy carbon accounting 
framework.
    They found that EPA's framework needed to account for the 
important ongoing role that forests play in sequestering 
atmospheric carbon dioxide and that we cannot automatically 
assume biomass energy is carbon neutral. Basically, you can't 
cut down a 150-year-old forest, burn it and assume there are no 
net carbon impacts.
    In 2012, my home State of Massachusetts published final 
carbon accounting regulations using a methodology very similar 
to those recommended by the Science Advisory Board. I would 
encourage EPA to incorporate these key science-based 
recommendations into whatever new rules are established to 
govern carbon emissions related to bioenergy.
    Ms. McCabe. We will make sure to take a look at those.
    Senator Markey. Thank you. I thank all of you so much for 
your service.
    The planet is running a fever. There are no emergency rooms 
for planets, so we have to engage in the kind of smart, forward 
looking activities that help us to avoid the worst, most 
catastrophic consequences of global warming.
    You are on the front lines of doing this but being smart as 
you are doing it. I think there is a way we can move forward 
that actually creates hundreds of thousands of new jobs in our 
country. I think that should be our goal.
    I thank you, Madam Chair.
    Senator Boxer. Senator, thank you so much.
    Senator Sessions.
    Senator Sessions. Thank you, Madam Chairman.
    I have two additional committees at this very moment so it 
is a good panel and I appreciate you being here.
    An abstract of a recent article linking climate change to 
extreme weather may be a powerful way to motivate people. The 
IPCC has tended to over generalize its research results and 
accentuate the negative side of climate change. This is 
somebody who supports the climate change agenda.
    Taken together, considerable evidence suggests that the 
international mainstream media and pro-environmental 
organizations have the tendency to accentuate or even 
exaggerate the damage caused by climate change.
    In this article, we suggest that information manipulation, 
which is generally overlooked in the literature, can be a novel 
and helpful mechanism for resolving the climate problem.
    Ms. McCabe, it seems to me it says quite plainly, these are 
professors from Singapore, I believe, maybe not as politically 
correct and sophisticated in western concerns, but it seems to 
me that it suggests what we have been seeing, an exaggeration 
of many of the complaints about global warming.
    My question to you is do you believe this is justified? If 
you are confirmed to this important office, will you tell the 
American people resolutely the truth as it exists according to 
the best science that you have, yes or no?
    Ms. McCabe. I am not a climate scientist myself. I work 
with climate scientists and I will do my best to make sure that 
all of our programs and policies are based on the best 
available science that is thoroughly debated in the public.
    Senator Sessions. Let me ask you this. Have hurricanes 
increased in intensity or number in the last 50 years around 
the world?
    Ms. McCabe. Senator, I am not familiar with exact 
statistics. I am aware that when the climate warms, which it 
is, that creates more energy in the atmosphere that can lead to 
more extreme weather events as well as droughts and wildfires.
    Senator Sessions. That is a really good theory. That is 
what we are being told by the people that taxpayers pay to take 
high government office. That is what the President of the 
United States has said. I would agree.
    However, Dr. Pielke testified at that table last year it is 
misleading and just plain incorrect to claim that disasters 
associated with hurricanes, tornadoes, floods or droughts have 
increased on climate time scales either in the United States or 
globally. In fact, the IPCC says ``current datasets indicate no 
significant observable trends in global tropical cyclone 
frequency over the last century.'' Does that not dispute what 
you just told us?
    Ms. McCabe. Senator, I am not exactly familiar with what 
you are quoting from but there are numerous reports that have 
been put out by U.S. scientists, government scientists, and 
international scientists that have gone through extensive peer 
review.
    Senator Sessions. So you are going to continue to insist 
that we have had more hurricanes over the last 50 or 100 years 
when the numbers are plain? They are accounted for worldwide 
each year and their intensity is accounted for and all you have 
to do is add them up. If you do that and it shows you are 
incorrect, will you acknowledge that?
    Ms. McCabe. Senator, the scientific evidence is out and 
available for the public for them to understand and use and 
talk to us about.
    Senator Sessions. You are about to take this office. I 
asked you this question in private and you said, and said it 
again as I understand it in public, you believe that we have 
had more storms and more hurricanes.
    Ms. McCabe. I believe that the scientific record shows that 
over a long period of time and over broad geographic areas, 
there have been changes.
    Senator Sessions. You dispute then the IPCC's recent 
finding that current datasets indicate no significant observed 
trends in global tropical cyclone frequency over the last 
century. That is the International Panel on Climate Change.
    Ms. McCabe. I can't speak to that exact quote, Senator, but 
I know that the IPCC has made many findings relative to the 
effects of climate change around the world.
    Senator Sessions. I am just going to tell you. I am going 
to submit this in writing to you and if you continue to insist 
that we have had more hurricanes in the last century and that 
they have increased as a result of global warming and climate 
change, I don't see how I can support your nomination. I don't 
see how I can support somebody who believes they can advocate 
against plain fact.
    My time is up. Thank you, Madam Chair.
    Senator Boxer. Ms. McCabe, I didn't hear you say there were 
more hurricanes. I heard you say that it is a scientific fact 
that when the air warms, it can create more hurricanes. Am I 
right?
    Ms. McCabe. That's correct.
    Senator Boxer. OK. Let the record show that.
    Senator Sessions. That is not what she told me in the 
office. That is not what is being said publicly. This is a 
clever alternative.
    I am going to ask you. Have they increased or not? That 
would be my question.
    Senator Boxer. Let the record show I was interrupted by 
Senator Sessions and I didn't mind.
    Here is the thing. There is a stark divide between the 
parties on environmental issues. If anyone doubts that, all 
they have to do is watch this committee when we take up the 
environment. It is laid bare here which I think is important. 
We shouldn't gloss over it or not respond to each other, so it 
is laid bare.
    All three of you are going to be working to protect global 
health and the environment, you, Ms. Dunkin, in a little 
different way by providing information stats and such, but 
particularly Mr. Ehrlich and Ms. McCabe. I know that you are 
going to do the right thing when it comes to protecting public 
health and safety because you are going to pay attention to the 
science. Am I right on that, Ms. McCabe?
    Ms. McCabe. Absolutely, Senator.
    Senator Boxer. Am I right on that, Mr. Ehrlich?
    Mr. Ehrlich. Yes, ma'am.
    Senator Boxer. Ms. Dunkin, when you do your numbers, you 
are going to do them objectively?
    Ms. Dunkin. Yes, ma'am.
    Senator Boxer. OK. Here is the deal. Senator Sessions is 
extremely upset with some of the reports coming out and he 
cited two people in Singapore, which is his right. I would like 
to cite the leaders in America, my country.
    The U.S. Global Change Research Program is an 
intergovernmental agency effort led by the National Oceanic 
Administration. I have never heard them being attacked by name, 
so let's be clear, the organization that is giving you, Ms. 
McCabe, this information on climate is the U.S. Global Change 
Research Program, not Singapore, not Pakistan, not France, it 
is the U.S. Global Change Research Program headed by NOAA, 
including in the interagency, the Department of Defense, the 
Department of Energy, NASA, the National Science Foundation and 
the Smithsonian Institute.
    They all reached agreement on the following statement I 
will put in the record and read into the record. ``Global 
change is happening now. Increases in population, 
industrialization and human activities have altered the world's 
climate, oceans, land, ice cover and ecosystems. In the United 
States, climate change has already resulted in more frequent 
heat waves, extreme precipitation, wild fires and water 
scarcity.'' The source is U.S. Global Change Research Program, 
Our Changing Climate, 2013, a NOAA-led effort.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T7799.117
    
    Senator Boxer. My colleagues can rant and rave about this 
all they want. They have every right to rant and rave. I rant 
and rave with them, too. That is fine. The facts are the facts 
and the fact is the leading voices in America are warning us.
    This stark divide exposed today for all the world to see, 
which I think it is really important that the world see it, 
because the people don't believe it when I speak at conferences 
about what it is like over here, is very regrettable.
    As I said before, it is totally different from when I got 
into politics. My first elected office was in 1976, I hate to 
say that, it was so long ago. It is ancient history and the 
young people are thinking, is she really that old? The fact is 
environment used to be bipartisan. It was wonderful. You could 
disagree on 50 other things but you came together because we 
all breathe the same air, a Republican, a Democrat, an 
Independent, a Green, anybody. We breathe the same air and 
drink the same water. We need the protections.
    I just wanted all three of you to know I am sorry you had 
to be subjected to this difficult hearing. Because it was 
difficult, but I think it is healthy and important that people 
speak from their heart, wherever that leads them, and that 
people lay out what the differences are because the American 
people need to understand it.
    I hope the young people who were here, I don't know where 
you come down on the issue of the environment, but I hope you 
will look into this more. I hope it will motivate you. If you 
feel that we need action on climate change, I hope you will 
push forward on that. Do something about that. Exercise your 
rights to make sure you breathe clean air and drink clean 
water.
    By the way, if you are on the other side, and you want to 
see these laws repealed, exercise that right. I hope you won't, 
but it is your right, for sure.
    In California, we are going through this horrific drought. 
Our leaders in California say it is related in fact, most of 
them, some of them say they are going to wait and see, but I 
will tell you this. It is hurting our State. Thank goodness we 
had a few major storms in the last couple of weeks. It was 
really rare to see this rain late, but everything is changing.
    There are very serious consequences to the economy, to 
people's health, to certainly our farm economy, our Silicon 
Valley people, and of course, our water users, our consumers. 
Eighty percent of our water is used for agriculture because we 
are the breadbasket in California, freely a lot more than the 
country, and in many ways, the world.
    It is a tough time but there are things we can do, but we 
can't do them if we keep on fighting over the very fact that 
climate change is here as our own leaders are telling us. Our 
Supreme Court said, this Supreme Court that is a tough court 
for progressives, that in fact carbon pollution is covered 
under the Clean Air Act. It took 8 years to get that decision.
    I want to thank all of you for being here. The three 
nominees, you are great. I am going to do everything I can in 
my power to get you confirmed. Even though I know we will have 
a few opponents, I think we can get this job done because we 
need you in your jobs.
    Thank you very much.
    We stand adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]
    [The following statements were submitted for the record:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Madam Chairman, thank you for holding today's hearing to 
fill three critical positions within our Federal Government. I 
want to welcome the nominees to the committee. I greatly 
appreciate your willingness and interest to answer our 
President's call to serve, and I wish you the best of luck and 
speed with your confirmations.
    EPA's Office of Air is of critical importance to fulfilling 
the mission of the Federal agency responsible for keeping our 
communities safe and healthy from pollutants emitting into our 
environment. There was a time not too long ago that smog 
congestion in our cities was so bad you taste it in the air. 
There were summer days in this city and its surrounding 
suburbs, which I represent, that children and the elderly were 
advised to stay indoors because ground level ozone would reach 
such high and unhealthy levels.
    Because of the Clean Air Act, the frequency of bad air days 
has diminished significantly, and as I'm sure the chairman can 
attest to, you can actually see the sky again in L.A.
    The debates we have in this committee over the efficacy and 
stringency of these laws clearly demonstrate that some take 
this progress for granted.
    I for one don't take it for granted. The Maryland 
Department of Environment reports that between 2001 and 2005 
the State only achieved good to moderate air quality for 84.6 
percent of the year, with the majority of the 15.4 percent of 
those bad air days occurring in summer when the heat is a major 
contributing factor to ground level ozone. Compare that to 
2011, one of the hottest years on record, and yet despite the 
incredible heat that exacerbates bad air days, the percentage 
of bad days on the year was just 8.8 percent.
    So my message to Ms. McCabe is that I certainly appreciate 
the work EPA is doing to protect Americans from harmful air 
quality.
    I also want to encourage the nominee to keep working hard 
to finalize rules to address power sector sources of carbon 
pollution under the authorities of section 111 of the Clean Air 
Act. If Congress lacks the will to act on the greatest threat 
to our environment, and given the Court's decision in 
Massachusetts v. EPA, than I believe EPA must act to regulate 
carbon pollution.
    I also want to thank Ms. McCabe for our conversation the 
other day on the Renewable Fuel Standard. We discussed my 
efforts to reform the law and my interest in EPA's revising its 
proposed 2014 RVO for advanced biofuels. I really appreciate 
her listening to me and having her commitment to work with me 
to address my concerns.
    Last, Mr. Ehrlich, I want you to know that January's 
chemical spill in central West Virginia shined a clear 
spotlight on the importance of the Chemical Safety Board. I 
want to know how you will work to make the CSB more effective 
in protecting public safety from such incidents and situations 
in the future.

                    Statement of Hon. Deb Fischer, 
                U.S. Senator from the State of Nebraska

    Thank you, Chairman Boxer and Ranking Member Vitter, for 
holding today's nominations hearing. Thank you, nominees, for 
being here and for your willingness to serve the public. I 
appreciate the opportunity to share with you the concerns of my 
constituents.
    EPA's work is of great consequence to our country and to my 
home State of Nebraska--impacting everything from agricultural 
practices to energy production. I take very seriously my 
responsibility as a U.S. Senator to review and consider these 
nominations.
    A clean and healthy environment is important to us all. 
Over the past several decades, we have made great strides in 
improving our air and water quality and protecting our natural 
resources--while still growing our economy. In Nebraska, 
farmers and ranchers are growing more food and fiber in an 
increasingly responsible and sustainable manner. Our public 
power utilities are serving more customers than ever while 
reducing emissions. Businesses are innovating to provide better 
goods and services to enhance quality of life, as they maximize 
efficiencies and reduce their environmental footprint.
    As I travel around Nebraska, pleas for regulatory relief 
come from families facing higher electricity bills, businesses 
and utilities confronting the compliance costs of new rules, 
and producers who are frustrated with a bureaucracy that simply 
does not understand the nature of their business.
    I am concerned about the increasing cost of compliance with 
environmental regulations for Nebraska's public power 
utilities. Today, advanced pollution control equipment can 
account for up to 25 percent of the cost to build a new power 
plant. Nebraska utilities have spent tens of millions of 
dollars complying with air emissions regulations, and these 
costs are expected to continue to rise. These regulations lead 
directly to increasing electricity prices and the monthly bills 
of all Nebraskans.
    Nebraska utility providers work hard to provide low cost 
electricity that is clean and reliable. We rely heavily on 
coal-fired generation because for now it remains the least 
expensive way to generate electricity. The barrage of current 
regulations as well as those being proposed under the Clean Air 
Act will likely cause Nebraska's utility producers to close 
some of our coal-fired power plants because of the cost to 
bring them up to the new emissions standards.
    Because greenhouse gas emissions are global in nature, we 
must examine what benefit we are seeking by limiting American 
utilities' choice of power generation technologies. We know 
that strict measures will drive up electricity costs and 
customers' monthly bills and jeopardize energy reliability. The 
people of the United States deserve affordable energy from our 
domestic energy producing natural resources.
    While EPA routinely claims benefits in excess of the 
regulatory costs, the benefit estimates are speculative at 
best. We simply must have more transparency and accountability 
when it comes to the underlying scientific justification of 
these rules.
    The people and public power utilities in Nebraska are 
poised to work with EPA to make reasonable and cost-effective 
changes that result in meaningful environmental improvements. 
What we cannot tolerate, however, is a lack of transparency, 
secret scientific findings, a failure to consider economic 
impacts, and increasing regulatory uncertainty.
    We must work together to pursue a path forward that 
continues both these environmental and economic achievements, 
one that encourages meaningful environmental improvements 
without stifling economic growth.
    I am hopeful that we can continue to make progress on these 
issues. Ms. McCabe, Ms. Dunkin, and Mr. Ehrlich, thank you 
again for being here today. I look forward to your responses 
about how we can work together to address these important 
objectives.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
